IN THE
SUPREME COURT OF THE UNITED STATES
No.
EMEM UFOT UDOH,
Petitioner,
vs.
UNITED STATES DISTRICT COURT, District of Minnesota,
Respondent.
APPENDIX

Order of the Eighth Circuit Court of Appeals........................ ........
Post-Conviction Order dated June 15, 2018..................................
Judge Paul Magnuson Habeas Corpus Order, dated July 6, 2017
State Court’s Opinion dated February 22, 2016.............................

...1-1
...2-10
..11-23
...24-43

Dated: March 8. 2021

Respectfully Submitted,

Emem U. Udoh, 245042
Pro se Litigant,
7600 525th Street
Rush City, MN 55069

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2952
In re: Emem Ufot Udoh
Petitioner
Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-04174-PAM)
JUDGMENT
Before LOKEN, GRUENDER, and GRASZ, Circuit Judges.
Petition for writ of mandamus has been considered by the court and is denied.
Petitioner’s motion for leave to proceed on appeal in forma pauperis is denied as moot. Mandate
shall issue forthwith.
October 01, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2952

Page: 1

Date Filed: 10/01/2020 Entry ID: 4961390

UNITED STATES COURTS OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2952
In re: Emem Ufot Udoh
Petitioner

Appeal from U.S. District Court for die District of Minnesota
(0:16-cv-04174-PAM)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by die
panel is also denied.
November 13, 2020
Order Entered At die Direction of die Court
Clerk, U.S. Court of Appeals, Eighdi Circuit

x

V

CASE 0:19-cv-01,'^\MJD-HB Droomwa7l-4 Filed 05^719 Page

ofewc Court
6/15/20182:04 PM
Hennepin County. MN

\

STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN

FOURTH JUDICIAL DISTRICT

State ofMinnesota,

Case Type; Criminal
Judge Tamara Garda

Respondent,
v.

Corot File No. 27-CR-13-8979
\

ORDER DENYING POSTCONVICTOIN PETITION IN
PART AND GRANTING AN
EVIDENTIARY HEARING IN
PART-

' EmemUfotUdoh,
t

Petitioner.

Vi>

lie above-entitied matter came before the Honorable Tamara Garcia on April 10,2018
on Petitioner’s petition for post-conviction relie£ _
PARTIES
Christina Warren, Assistant Hennepin County Attorney, is the attorney ofrecord for foe
Stale of Minnesota.
Emem Udoh, Petitioner, is pro se.
Upon the evidence adduced, the arguments of counsel, and all files; records and
proceedings herein, the Court makes foe following:

PROCEDURAL POSTURE AND FTNDGS OF FACT
1. Petitioner was charged with (1) Criminal Sexual Conduct in the First Degree in violation
ofMinn. Stat § 609.342, subd. 1(b), (2) Criminal Sexual Conduct in foe Second Degree
in violation ofMinn. StaL § 609343, subd. 1(b), 0) Criminal Sexual Conduct in foe Hist
Degree in violation ofMum. Stat' § 609342, subd. 1(a), and (4) Criminal Sexual
Conduct in foe Second Degree in violation ofMinn. Stat § 609343, subd. 1(a). Counts 1
and 2 related to foe sexual abuse ofPetitioner’s stepdaughter, KJCW. Counts 3 and 4
related to the sexual abuse ofPetitioner’s stepdaughter, K.C.W.
. 2. A foil recitation ofthe facts presented at trial can be found in State v. Udoh, which the
Court adopts and incorporates hero 2016 WL 687328,' *1-2 (Minn. 2016).
;

3. On August 19,2014,following trial, ajuiy found Petitioner guilty of Counts 1,2 and 4,
but acquitted him on Count 3. On September25,2014, Petitioner was convicted on
Counts 1,2 and 4 and sentenced on Counts 1 and 4.

l

1

Appellate Case: 20-2389

Page: 373

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRICCKP0373

CASE 0:19-cv-0i:^-MJD-HB DactHnealrM Filed 05O19 Page

Judicial District Court
6/15/20182^)4 PM
Hennepin County, MN

4. On direct appeal, Petitioner’s appellate counsel raised two issues; (1) “that the district
court abused its discretion by allowing expert testimony on the ultimate issue” and (2)
that die district court “erred by entering a conviction on a count of second-degree
criminal sexual conduct” Id. at *1.
5. Hie first issue dealt with the district court allowing Dr. Thompson to testify as to whether
or not a person would have to penetrate the female genital opening in order to touch a
female on her hymen. Id. at *2-3. The Court ofAppeals ultimately held that the District
Cpurt did not abuse its discretion in overruling Petitioner's objection and allowing Dr.
Thompson's testimony on that point and dial there was “little likelihood that die
challenged testimony substantially influenced the jury's decision.” Id. at *3-4 (internal
quotations omitted).
6. On the second issue raised by appellate counsel, the Court of Appeals agreed that
Petitioner was incorrectly convicted of Count 2, as it was a lesser-included offense to
Count 1.'
.7. Petitioner also raised four issues pro se on appeal: “that (1) the district court abused its
discretion by limiting cross-examination of KLK.W.; (2) die district court ened by
admitting certain evidence; (3) the prosecutor committed misconduct; and (4) die district
court erred by denying his motion for ajudgment of acquittal.” Id. at *4. The Court of
Appeals denied all ofPetitioner's pro se grounds for relief
8. The Court of Appeals issued its opinion on this matter on February22,2016 and
remanded to the district court for vacation ofPetitioner's conviction on Count 2.
Immediately upon receipt of die appellate court opinion and also on February22,2016,
. * die undersigned issued an order vacating Petitioner's conviction on Count 2 and ordering
a new warrant ofcommitment be issued. On May 31,2016, the Minnesota Supreme
Court declined review of this matter and affirmed the appellate court decision.
9. On April 10,2018, Petitioner filed a petition for post-conviction reliefrequesting relief
on die following 10 grounds1:
a. that the District Court abused its discretion in excluding evidence of specific
instances of conduct showing untruthfulness on die part ofKJCW.;
b. that die District Court erred in admitting the ComerHouse videos into evidence;
c. prosecutorial misconduct;
d. that die District Court erred in denying Petitioner’s motion for judgment of
acquittal on the grounds of insufficient evidence;
e. that the District Court erred in convicting Petitioner of Count 2;
£ that the District Court erred in allowing Dr. Thompson to testify about what
. constituted penetration in tins matter;
g. that Petitioner received ineffective assistance oftrial counsel for failing to
property preserve issues a-f;
1 The Court refers to these grounds as claims a-J (hrooghont ihe remainder oftUs order.
2

Appellate Case: 20-2389

Page: 374

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRICO®0)374

CASE 0:19-cv-01'"l-MjD-HB DbobowbM-4 Rled 0r~’/19
•«

6/15/2018 2.04 PM
Hennepin County. MN

h. that Petitioner received ineffective assistance of appellate counsel for failing to
“adequately and effectively" raise issues a-g;
L that Petitioner is entitled to an acquittal or a new trial based on newly recanted
witness testimony2; and
j., that Knaffla? which acts as a procedural bar to Petitioner’s claims in a-g, is
unconstitutional.
Petitioner seeks relief in the form of discovery, subpoenas for identified witnesses, an
evidentiary bearing; vacation ofbis convictions and a new trial.
10. Petitioner’s claims a-f are virtually identical to claims raised by Petitioner and his counsel
on direct appeal. Additionally, Petitioner’s claim that Knaffla is unconstitutional is not
truly a ground for relief but rather an argument for why claims a-g should not be
procedmgdly barred, thus, it will be treated as argument applicable to all claims a-g rather .
di
than a separate claim for relief
11. hr his petition, Petitioner includes the following exhibit to support his claim that the
victims have recanted their trial testimony:
A7: Notarized Affidavits ofKJLW. and K.C.W.
Both affidavits are dated March 17,2018 and notarized on March 18,2018. KJSLW.’s
affidavit states that she lied about Petitioner abusing her following the suggestion ofher
fiiend in order to get her phone back. She also indicates she was pressured to maintain
tire story under threats by unspecified persons who told her that her brothers would he
taken away, that her mom would go to jail and she would be in trouble if she did not do
. ’ as they said. She stales that she is sony and wants her family back because she misses
her mother, her brother and her stepdad. K.C.W.’s affidavit states that she lied about
Petitioner abusing her because she was scared of the police, social worker, and all ofthe
other people with whom she spoke. K.C.W. also expressed that she stuck with her story
due to threats that her mother would go to prison and that she would get in trouble if she
changed her story.
CONCLUSIONS OF LAW
Discovery

1

’ 1. Chapter 5 90 provides a vehicle for reliefwhen appellate review is no longer available.
State v. Vikeras, 378 N.W.2d 1,3 (Minn. CL App. 1985). “These procedures were not '
devised to permit parties to engage in legal games or to permit a petitioner to embark
upon unlimited and undefined discovery proceedings." Thompson v. Stale, 170 N.W.2d
101,104 (Minn. 1969). “A criminal defendant proved guilty after a fair trial does not
have the same liberty interests as a free man.” DistrictAttorney's Officefor Third
Judicial Dist v. Osborne, 557 U.S. 52,68 (2009). Therefore, “pieeonviction trial rights,”
1 Petitioner describes this as *new!y discovered evidence.”
* Stott v. Knaffla, 309 N.W^d 246 (Minn. 1976).
3

Appellate Case: 20-2389

Page: 375

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRKEKPJQ75

CASE 0:19-cv-01f^ VMJD-HB DacomMtti-4 Filed 05^719 Page
'

6/15/2018204 PM
Hennepin County. MN

including rights under the pre-trial discovery rules and Brady v. Maryland, 373 U.S. 83 •
(1963), do not extend to postconviction proceedings. Id. In the postconviction
proceeding, discovery is dosed and will not be reopened absent good cause. Carter v.
State, 2001WL 682790 at *3 (Minn. CL App. June 19,2001).
»

2. Petitioner has failed to identify any specific items ofdiscovery he is requesting and ha<
made no showing of good cause that the Court should reopen discovery in this matter,
Thus, Petitioner is not entitled
to discovery at tb« point in the proceedings.
• «
Claims a-f: Errors during fire Trial Court Proceedings
3. “The court. .may summarily deny a petition when the issues raised in it have previously
been decided by the Court of Appeals or the Supreme Court in the same case." Minn.
Stat § 590.04, subd. 3. Moreover, while a person convicted of a crime is entitled to
-7
review, claims that have been fully and fairly litigated, should not be re-litigated on
subsequent appeals or petitions. State v. Knaffla, 243 N.WJ2d 737,741 (Minn. 1976).
. 4. Petitioner argues that Knaffla should not be applied as a bar to bis claims as the decision
is unconstitutional. Knaffla has been a part of Minnesota jurisprudence for over 40 years
and has been relied upon repeatedly by both the Minnesota Court ofAppeals and die
Minnesota Supreme Court throughout that time. The Supreme Court has cited it as
recently as June 6,2018. See Wqynev. State,-N.W^d-,2018 WL 2708743 (Minn.
2018). The Court is not persuaded by any ofPetitioner’s arguments that Knaffla is
unconstitutional either generally or as applied to bis case*
5. There are two exceptions to the Knaffla rule; (1) “the claim is so novel that its legal basis
• 'was not reasonably available at die time ofthe directappeal” or (2) “when fairness so
requires and the petitioner did not deliberately and inexcusably fail to raise the issue on
direct appear. Greer v. State, 673 N.W.2d 151,155 (Minn. 2004). Neither exception
applies to any ofPetitioner’s claims.
6. While Petitioner cites Tome v. United States, for the proposition that the admission of
prior consistent statements ofwitnesses should not have been admissible (claim b), and
argues that it is a “novel” legal claim not available to him during appeal, the Tome
decision is not an exception to the Knaffla bar for two reasons. 513U.S. 150(1995).
first, Tome dealt with tire federal rules of evidence and is therefore not binding in a stale
court, unless adopted by the individual state. Minnesota has not adopted the reasoning in
Tome. Second, Tome was derided in 1995,20 years before Petitioner’s appeal. Thus, it
was equally available to him at die time of his appeal and is, therefore, not a “novel”
legal claim.
‘ 7. In this case, a number ofPetitioner’s claims have already been decided by the Minnesota
Court ofAppeals. Specifically, Petitioner’s claims ted were raised by Petitioner pro se
and claims e-fwere raised by appellate counsel. With the exception of the request to
vacate Petitioner's conviction on Count 2 (claim e), the Minnesota Court ofAppeals
denied all ofPetitioner’s claims. Petitioner has offered no reason sufficient to show that
4

Appellate Case: 20-2389

Page: 376

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

mm 76

CASE0:19-cv-01-' VMJD-HB DeaffllMM-4 Filed 05" 719 Page^y-2^^^^
6H5/2018 23U PM
Hennepin County, MN
&iniess requires that this Court revisit claims already decided by the Court ofAppeals.
Because these claims were already My and fairly litigated before the Court ofAppeals,4
Petitioner may not rc-litigate these claims now. Therefore; claims a-d and fare
summarily denied
8. Petitioned is correct that he was erroneously convicted ofboth Count 1 and Count 2,
where Count 2 was a lesser-included charge of Count 1. However, pursuant to the Court
ofAppeals opinion, this Court vacated Petitioner’s conviction on Count 2 on February
22,2016. The court record ofPetitioner*s convictions on tins matter accurately reflects
this vacation and Petitioner no longer stands convicted of Count 2. Petitioner has already
received the appropriate remedy fortius error and, therefore, his request to vacate the
conviction of Count 2 is moot
Claim g: Ineffective Assistance of Trial Counsel.
9. “[TJhe Knaffla rule also bars any claims not made but about which a petitioner knew or
should have known at the time of an earlier appeal or petition.” Walen v. State, 777
. N.W.2d 213,25 (Minn. 2010) (citing Knaffla at 741). As discussed above; Knaffla is not
unconstitutional, and therefore applies in this platter.
10. Petitioner*s claims relating to ineffective assistance relate to alleged errors counsel
leading up to and during Petitioner’s trial.' Petitioner knew or should have known about
all ofthese issues attire time ofhis direct appeal. Petitioner himselfdid not raise
ineffective assistance of trial counsel at bis appeal, despite raising four other claims pro
se. Petitioner has failed to assert ary reason that Ids failure to raise the claim was
anything but deliberate and inexcusable. See supra State v. Greer. Nothing has chimp-d
.about trial counsel’s performance or Petitioner’s ability to know about trial counsel’s
performance since Petitioner’s appeal. Thus, Petitioner is proceduraUy barred from sow
raising an ineffective assistance oftrial counsel claim
11. Even ifthis Court were to consider Petitioner’s ineffective assistance of counsel claim on
its merits, Petitioner would still not prevail. When an ineffective assistance ofcounsel
claim is raised, courts analyze tire claim under the test articulated in Strickland v.
Washington, 466 U.S. 668 (1984). Under the Strickland test. Petitioner must first show*
that counsel’s representation fell below an objective standard of reasonableness, and
second, that there was a reasonable probability that but for counsel’s errors, the result
would have been different Id. “A defendant is provided with effective representation if
bis attorney *exerrise[s] the customary skill and diligence that a reasonably competent
attorney would exercise under similar circumstances.’” State v. Helnkel, 322N.W.2d
322, 326 (Minn. 1982). "There is a strong presumption that a counsel’s performance falls
within the wide range ofreasonable professional assistance.” State v. Jones, 392N.W2d
224,236 (Mima. 1986); see also State v. Vang, 847 N.W.2d248,266-67 (Minn. 2014)
(noting that "counsel’s performance is presumed to be reasonable”). A reviewing court
‘The Court wtej that Petitioner hu also tried to unsuccessfully InigttB portionj ofclaim b in federal court. See
Petitioner** Exhibit AS.
5

Appellate Case: 20-2389

Page: 377

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIC0®P377

/"-V

CASE 0:19-cv-01

1-MJD-HB DmuronH-4 Filed oO/19 Page^fM.
6^5/20182^4 PM
Hennepin County. MM

need not address both elements ofthe StricHand test if one is dispositive. Hawes v State.
826 N.W2d 775,783 (Minn. 2013).
12. Petitioner cannot meet either prong with regard to trial counsel. Hie Minnesota Supreme
Court has generally held that reviewing courts should not review ineffective
of
counsel claims that are based on trial strategy. State v. Bobo, 770 N.W.2d 129,138
(Miim. 2009); Opsahl v. State, 677 N.W.2d 414,421 (Minn. 2004). What evidence to
present to thejury, what witnesses to call, and whether to object are all considered part of
trial strategy winch lie within die proper discretion oftrial counsel aud will generally not
be reviewed later for competence. Boitnott v. State, 631 N.W.2d 362.370 (Minn. 2001);
State v. Jones, 392 N.W.2d 224,236 (Minn. 1986). This position is grounded in die
public policy of allowing counsel to “have die flexibility to represent a client to die
fullest extent possible ” Jones, 392 N.W.2d at236.
fc.

13. Determining which witnesses to call at trial and who to reasonably investigate before trial
falls squarely within the trial strategy discretion of counsel. Thus, Petitioner cannot show
ineffective assistance of counsel to the extent that his claim ofineffective assistance of
counsel relies on trial counsel’s failure to investigate or subpoena certain witnesses.
14. Petitioner’s other arguments of ineffective assistance of trial counsel likewise fefl. First,
even though Petitioner argues that he received ineffective assistance oftrial counsel
because trial counsel failed to preserve a number ofhis other claims, petitioner’s own
citation of the record undermines this assertion. In support ofdie majority of his other
claims. Petitioner actually cites to portions ofdie transcript where his counsel either
objected to flic evidence Petitioner claims was error to admit, or made the requests on
Petitioner*s behalf he is now claiming it was error to deny. Thus, Petitioner has not
. demonstrated that trial counsel’s performance fell below die standard ofreasonableness.
15. Additionally, because the Court ofAppeals did not deny any of Petitioner’s d»im« on the
basis dim they were not properly preserved by a failure to object, Petitioner cannot show
that but for any deficiencies on the part of trial counsel his outcome on appeal would
have been different. Rather, die Court ofAppeals considered each ofPetitioner’s claims
on its merits and found each to be meritless. Thus, after considering die entire record,
including die appellate court opinion, die Court concludes that Petitioner’s
of
ineffective assistance oftrial counsel is wholly without merit.5
Claim h: Ineffective Assistance of Appellate Connie]
16. As wife Petitioner’s ineffective assistance oftrial counsel claim, in order to demonstrate
he received ineffective assistance of appellate counsel, he must mert the Strickland test
Petitioner must first show feat counsel’s representation fell below an objective standard
ofreasonableness, and second, that there was a reasonable probability that but for
* The Court acknowledges that based upon the Court ofAppeals* reversal on the issue ofPetitioned conviction on
Count 2, trial counsel may have been ineffective in not objecting to that conviction. However, sine® die issue of
Petitioner's emoneous conviction has already been remedied, there is no reason to believe counsel's ineffectiveness
on that issue continues to impact Petitioner.
6

Appellate Case: 20-2389

Page: 378

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

78

>

CASE 0:19-cv-0T

1-MJD-HB DomimcwH-4 Filed 0f^719 Page

Judicial District Court
6/15/20182.04 PM
Hemepin County. MN

counsel’s errors, die result would have been different Strickland v. Washington, 466
U.S. 668 (1984). Additionally, “appellate counsel [does] not have a duty to farinda all
possible claims on direct appeal, but rather [is] permitted to argue only the most
meritorious claims." Schneider v. State, 725 N.W.2d 516.523 (MW 2007).
17. Petitioner’s claims ofineffective assistance ofappellate counsel center on appellate
counsel’s failure to effectively raise claims a-g on appeal. First appellate counsel did
raise claims c and f on appeal, and won a reversal on claim e. Petitioner has not
demonstrated that appellate counsel failed to raise appropriate arguments with regard to
claim £ Rather, die appellate court considered claim ffully on its merits and detwmWd
that die trial court did not commit error in allowing Dr. Thompson’s testimony.
18. With regard to claims a-d, while it is true that appellate counsel did not raise these claims
on appeal, Petitioner did and they were fully considered on their merits by die Court of
Appeals. Petitioner has failed to demonstrate that the outcome ofhis appeal on these
issues would have been any different had they been raised by counsel instead ofpro se.
Moreover, die Court ofAppeals found claims a-d to be meritless and thus, appellate
counsel was not required to raise them. Instead, appellate counsel exercised professional
judgment in determining dial claims fc-fwere die most meritorious olaims tn price nn
appeal. Because Petitioner has failed to demonstrate that appellate counsel’s
performance was ineffective under Strickland, he is not entitled to any relief on this
ground.
Evidentiary Hearing on

a>h

19. Since the petition, files and records of the proceedings in this matter conclusively show
. that Petitioner is not entitled to relief on claims a-h, he is not entitled to an evidentiary
hearing on those claims. Minn. StaL 590.04, subd. 1. Neither is he entitled to have
witnesses on those claims subpoenaed. •
Claim i: Victim Recantations
1. The Court evaluates a request for a new trial on the baas ofrecanted trial testimony using
the three-prong "Larrison test”; that “(1) die court is reasonably well satisfied dial die
testimony given by a material witness was false; (2) without the false testimony, die jury
might have reached a different conclusion; and (3) the petitioner was takm by surprise
when the false testimony was given and was unable to meet it or did not know that the
testimony was false until after trial.” State v. Caldwell, 835 N.W2d 766,772 (Minn. ’
2014). The first two prongs are compulsory, however, the third prong, while relevant is
not an “absolute condition precedent" Id. Petitioner “does not need to satisfy die
. Larrison standard at tins stage of die proceeding. Rafter, tn determine whether
[Petitioner] is entitled to an evidentiary hearing, [the Court] assume* the truth of his
allegations that bear sufficient indicia oftrustworthiness and determines] whether those
allegations would be legally sufficient to entitle him to relief ifthey were proven at a
hearing.” Id.
t

7

I

I
Appellate Case: 20-2389

Page: 379

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRiqj®®379

. *

r\

s \

CASE 0:19-cv-01 1-MJD-HB Qj}®wW§yfel-4 Filed 05. /19 Pagey^^^d
BT15/2018 2:04 PM
Hennepin Cotnty, MN

2. The recantations come in fbnn ofnotarized affidavits signed by the victims themselves,
thus they bear sufficient indicia of trustworthiness for die Court to consider them.
Assuming then, as it must, dial die allegations laid out in Petitioner’s claim and as
supported by the affidavits are true, die Court is persuaded that but for die victims*
alleged false testimony, thejury might have reached a different conclusion. While it is
true, as die State points out in its brief that both victims were impeached with their
character for untruthfulness and that the motives for fabrication were presented in part at
trial, die fact that the recanting witnesses are die victims is significant The State did
' produce otherevidence ofPetitionex*s abuse of die victims at trial, however, all ofthat
evidence was ultimately based on the statements ofthe two victims.. The Court is not
convinced that if these two witnesses had testified at trial consistent with die affidavits
attached to Petitioner’s petition or were to do so at a new trial, the jury would reach the
same conclusion. Thus; in order for die Court to fully analyze Petitioner’s claims under
die Larrlfpn test, an evidentiary hearing, including testimony subject to cross
examination from K.K.W. and K.C.W. is necessary so the Court may adequately assess
the genuineness ofdie recantations and from there determine the falsity of die trial
testimony.
IT IS HEREBY ORDERED
1. Petitioner’s request for discovery is DENIED.
2. Petitioner’s requests for post-conviction relief on the basis of errors during the trial
process (claims a-d «n<i f) are summarily DENIED in their entirety.
3. Petitioner’s request for die vacation of his conviction on Count 2 (claim e) is DENIED as
. moot
4. Petitioner’s request for post-conviction relief on the basis of ineffective assistance of trial
counsel (claim g) is DENIED in its entirety.
5. Petitioner’* request for post-conviction relief on the basis ofineffective assistance of
appellate counsel (claim h) is DENIED in its entirety.
6. Petitioner’s request for subpoenas of Charles E. Johnson, Donothan Bartley, Arm Norton,
Daniel E. Johnson, Catrina Blair, Molly Lynch, Kelvin Pregler, Joanne Wallen, Karen
Wegerson, Ann Mock, Patricia Harmon, Bill Koncar, Grace W. Ray, Linda Thompson,
Christa Groshek, Kelly Moore, DaviKAxelson, and any other person related to claims
* a-h is DENIED.
7. Petitioner’s request for an evidentiary hearing on his motion for a new trial based upon
recanting witness testimony is GRANTED.
8. Counsel for the State of Minnesota shall contact the Court regarding her availability for
an evidentiary hearing upon receipt ofthis order. -

s

Appellate Case: 20-2389

Page: 380

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIC(J(5P380

. fc

•V

CASE 0:19-cv-0lO-MJD-HB D0GO*neatfl-4 Filed 05^/19

Pa9e W3dQfF?2lft Judicial Dfstrtd Court
6/15/2018 2^)4 PM
Hennepin County. MN

9. Once an evidentiary hearing has been scheduled, a writ shall he obtained to ensure
Petitioner’s presence at die hearing
10. Parties shall subpoena or otherwise secure the presence of any witness they believe is
necessary on die issue of die victims’ recantation. Witnesses will not be allowed to
testify as to any other issue at the evidentiary hearing.
BY THE COURT:

Dated:

c

7
Tamara
Judge of District Court
Fourth Judicial District

jal

\

9

I
Appellate Case: 20-2389

Page: 381

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

381

/

V

V

n

n

\

CASE0:16-cv-04174*PAM-HB Documents Filed 07/06/17 Page lot 13

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 16cv4174 (PAM/HB)

EmemUfotUdoh,
Petitioner,

MEMORANDUM AND ORDER

v.
Becky Dooley, Warden,
Respondent

Tins matter is before the Court on a Petition for a Writ of Habeas Corpus under 28
U.S.C. § 2254. For the following reasons, the Petition is denied.

BACKGROUND
On August 19, 2014, a Hennepin County jury convicted Petitioner Emem Ufot
Udoh of two counts of second-degree criminal sexual conduct and one count of firstdegree criminal sexual conduct The charges arose out of contact Udoh had with his two
stepdaughters, 13-year-old K.K.W. and 11-year-old K.C.W. The trial court sentenced
Udoh to 144 months’ imprisonment on the first-degree conviction, and a concurrent 70
months on the second-degree convictions. Udoh appealed, filing both an attorneyauthored brief and a pro se brief. The Minnesota Court of Appeals determined that the
second-degree count as to KLK.W. was a lesser included offense of the first-degree count
as to the same child, and vacated that conviction, but otherwise rejected Udoh’s
challenges. State v. Udoh. No. A14-2181.2016 WL 6867328 (Minn. Ct App. 2016). On
remand, the trial court sentenced Udoh to the same sentence it had previously imposed.

1
Appellate Case: 20-2389

Page: 994

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI Mml 94

n

r>

*1

CASE0:16-cv-04174-PAM-HB Documents Filed07/06/17 Page2of 13

After the Minnesota Supreme Court denied review and the United States Supreme
Court declined to issue a writ of certiorari, Udoh brought the instant Petition, claiming
that his conviction runs afoul of the United States Constitution. Although his precise
claims are difficult to decipher, the Petition can fairly be read to raise six grounds for
relief. Ground One argues that an expert witness interfered with the jury’s role by
testifying that Udoh’s conduct qualified as penetration. Ground Two claims that his
convictions for both first- and second-degree criminal sexual contact as to K.K.W.
violated his Double Jeopardy rights and caused the trial court to impose an
unconstitutionally cumulative punishment, including lifetime supervised release. Ground
Three contends that the trial court violated Udoh’s Confrontation Clause rights by not
allowing him to present extrinsic evidence that allegedly would have undermined the
credibility of one of the victims. Ground Four drums that the trial court’s determination
regarding extrinsic evidence of the victim’s veracity violated Udoh’s due-process rights
and his right to a fair trial. Ground Five argues that prosecutorial misconduct deprived
Udoh of his due-process and equal-protection rights. And Ground Six contends that the
trial court erred in denying Udoh’s motion for a judgment of acquittal because there was
insufficient evidence to convict him.1 Udoh asks for an evidentiary hearing on his
claims.
1 Udoh’s reply memorandum raises a new argument, that the prosecutor’s use of the
videos of the victims’ interviews at ComerHouse, and those interviews themselves, as
well as physical examinations of the victims, constituted unreasonable seizures under the
Fourth Amendment. (Pet’r’s Reply Mem. (Docket No. 18) at 23-25.) As a result, Udoh
claims that he was unable to present a complete defense. (Xd, at 24.) But the interviews
and exams were not seizures as to Udoh; the only rights implicated in the interviews and
2

2
Appellate Case: 20-2389

Page: 995

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

95

•i

r\
CASE0:16-cv-04174*PAM-HB Documents Filed07/06/17 Page3of 13

DISCUSSION
A.

Standard of Review
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA"), 28

Q

U.S.C. § 2241 et seq., a federal court “undertakefs] only a limited and deferential review
of underlying state court decisions.” Collier v. Norris. 485 F.3d 415,421 (8th Cir. 2007).
Indeed, AEDPA “modified a federal habeas court’s role in reviewing state prisoner
applications in order to prevent federal habeas ‘retrials’ and to ensure that state-court
convictions are given effect to the extent possible under law.” Bell v. Cone. 535 U.S.
685,693 (2002) (citation omitted). 28 U.S.C. § 2254 provides:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). Further, § 2254 states that “a determination of a factual issue made
by a State court shall be presumed to be correct” Id. § 2254(e)(1). The burden is on the
petitioner to “rebut[] the presumption of correctness by clear and convincing evidence.”
Id,
exams were the rights of the victims themselves. Udoh has no standing to object to that
alleged violation of rights. And even if the claim had any legal merit Udoh did not raise
it in his Petition, nor did he present it to the state courts. He is therefore procedurally
barred from pressing the claim here.
3
3
Appellate Case: 20-2389

Page: 996

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

mm 96

n

D

CASE 0:16-cv-04174-PAM-HB Documents Filed07/06/17 Page4of 13

Udoh asks that this Court review the state-court rulings de novo, arguing that the
state courts failed to adjudicate the merits of Udoh’s federal constitutional claims. But
Udoh misapprehends the governing legal standards. Although a claim not adjudicated on
the merits in state court is not entitled to deferential review, Brown v. Luebbers. 371 F.3d
458, 460-61 (8th Cir. 2004), the “pertinent question is not whether the (state court]
explicitly discussed the [federal constitutional issues] but whether its decision
contradicted applicable Supreme Court precedent in its reasoning or result” Cox v.
Burger. 398 F.3d 1025, 1030 (8th Cir. 2005). A state court’s “reasonable application of
established federal law ‘does not require citation of [Supreme Court] cases—indeed, it
does not even require awareness of [these] cases, so long as neither the reasoning nor the
result of the state-court decision contradicts them.’" Id. (quoting Early v. Packer. 537
U.S. 3, 8 (2002) (per curiam) (emphasis in original)). Even a cursory review of the trial
court’s and appellate court’s decisions on the issues Udoh raises reveal that those courts
either considered federal constitutional principles in evaluating Udoh’s claims or that
their determinations are not contrary to Supreme Court precedent, to the extent the claims
implicate any federal constitutional rights. Thus, the claims he rases here were
“adjudicated on the merits in State court” and the decisions of those courts is entitled to
§ 2254’s highly deferential review.
Under that deferential review, “[a] federal court may not issue the writ simply
because it ‘concludes in its independent judgment that the relevant state-court decision
applied clearly established federal law erroneously or incorrectly.

Rather, that

application must also be unreasonable.*” Lyons v. Luebbers. 403 F.3d 585,592 (8th Cir.
4

4
Appellate Case: 20-2389

Page: 997

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

mm 97

CASE 0:16-cv-04174-PAM-HB Document 19 Filed 07/06/17 Page 5 of 13

2005) (quoting Williams v. Tavlor. 529 U.S. 362, 411 (2000)). A “state court’s
determination that a claim lacks merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness of the state court’s decision.”
Harrington v. Richter. 562 U.S. 86,101 (2011).
B.

Expansion of the Record and Evidentiary Hearing
Udoh has attached several documents to Ms Petition that were not part of the

record before the state courts. He asks the Court to consider those documents by
expanding the record under Rule 7 of the Rules Governing Habeas Corpus Cases under
Section 2254. But “[wjhen a petitioner seeks to introduce evidence pursuant to this rule,
the conditions prescribed by § 2254(eX2) must still be met” Mark v. Ault 498 F.3d 775,
788 (8th Cir. 2007). Under § 2254(e)(2), “[a] habeas petitioner must develop the factual
basis of Ms claim in the state court proceedings rather than in a federal evidentiary
hearing unless he shows that Ms claim relies upon a new, retroactive law, or due
diligence could not have previously discovered the facts.” Cox. 398 F.3d at 1030 (citing
28 U.S.C. § 2254(e)(2)). The documents in Udoh’s exMbits D-F and H are documents
that Udoh could have previously discovered. Indeed, these are documents that pre-date
Udoh’s trial, and include documents that he and his attorney likely possessed before trial.
They are not newly discovered evidence. Rule 7 does not apply, and the Court will not
consider documents that were not part of the state-court record.
Nor is Udoh entitled to an evidentiary hearing on his drums. AEDPA provides
that a habeas petitioner is entitled to a hearing only if he can show that Ms drum “relies
on a new rule of constitutional law ... or a factual predicate that could not have been
5

5
Appellate Case: 20-2389

Page: 998

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

mm?, 98

D
CASE0:16-cv-04174-PAM-HB Documents Filed07/06/17 Page6of 13

previously discovered through the exercise of due diligence” and that “the facts
underlying the claim would be sufficient to establish by clear and convincing evidence
(.

that but for constitutional error, no reasonable factfinder would have found the
[petitioner] guilty ...” Id. § 2254(e)(2). As discussed, there is no newly discovered
evidence here, nor is there a new rule of constitutional law that applies to Udoh's claims.
His request for an evidentiary hearing is denied.
C.

Merits
1.

Usurping the Jury’s Role

During trial, the prosecutor elicited testimony from a physician who examined the
victims that the conduct they described amounted to “penetration.” Penetration is an
element of first-degree criminal sexual conduct under Minnesota law. Seg Minn. Stat
§ 609.342, subd. 1 (defining crime in relevant part as engaging in “sexual penetration”).
Udoh contends that this testimony deprived him of a fair trial because the issue of
whether there was penetration was for the jury to determine. Udoh’s appellate counsel
raised this issue on appeal, arguing that the trial court disregarded state law and state
evidentiary rules in overruling Udoh’s objection to this testimony. The Minnesota Court
of Appeals determined that state precedent and rules of evidence (fid not prohibit an
expert witness from testifying regarding penetration in this instance. The appeals court
also determined that the testimony likely did not influence the jury’s decision because
/

“the record contained unobjected-to evidence of penetration.” Udoh. 2016 WL 687328,
at *4.

6

6
Appellate Case: 20-2389

Page: 999

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI

mm'99

n
CASE0:16-CV-04174-PAM-HB Documents Filed07/06/17 Page7of 13

Udoh does not explain the federal constitutional basis for this claim. He cites no
federal case holding that expert testimony regarding a matter for the jury’s determination
violates any federal constitutional principle or is contrary to clearly established Supreme
Court precedent Udoh’s reply memorandum seems to indicate that he believes the state
court’s fact-finding was deficient as to this claim. But Udoh has not established that the
state courts’ factual determinations were unreasonable in light of the evidence presented
at trial. This claim is without merit
2.

Double Jeopardy and Cumulative Punishment

Udoh argues that his conviction for the second-degree lesser included offense as to
KJC.W. violated double jeopardy and caused the trial court to impose cumulative
punishment including a lifetime of supervised release. Of course, any double jeopardy
issue was resolved by the appellate court’s reversal of Udoh’s second-degree conviction
as to KJC.W., and the Court will not discuss this aspect of Udoh’s claim further.
Udoh contends that the imposition of punishment as to the lesser included offense
violates Supreme Court precedent He did not raise any constitutional issue regarding his
sentencing in his appeal, and thus this claim is likely procedurally barred. See Joubert v.
Hookins. 75 F.3d 1232, 1240 (8th Cir. 1996) (explaining procedural bar for claims not
properly raised in state courts). But even if not barred, it is without merit Although
multiple punishments for the same offense violate Double Jeopardy, Brown v. Ohio. 432
U.S. 161, 165-66 (1977), Udoh was not subjected to multiple punishments for the same
offense. Rather, he was sentenced to 144 months on the first-degree conviction as to
K.K.W., and a 70-month concurrent sentence on the second-degree conviction as to
7

7
Appellate Case: 20-2389

Page: 1000

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQ03I0OO

n

r^

CASE 0:16-cv-04174-PAM-HB Document 19 Filed 07/06/17 Page 8 of 13

K.C.W. The trial court’s decision that he should be on supervised release for the
remainder of his life is not additional punishment See. e.&. United States vt_Watts, 519
U.S. 148,154 (1997) (finding that sentence enhancements are not additional punishments
for the same offense but rather only increase a sentence “because of the manner in which
[the defendant] committed the crime of conviction”). Nor is the imposition of supervised
release for life an impermissible collateral consequence of the vacated second-degree
conviction. Rather, Minnesota law provides that defendants convicted of first-degree
criminal sexual conduct under Minn. Stat. § 609.342 must be placed on supervised
release “for the remainder of the offender’s life.” Minn. Stat § 609.3455, subd. 7(b).
The imposition of lifetime supervised release was thus mandatory and not an
unconstitutional collateral consequence of the vacated second-degree conviction.
Minnesota’s determination that certain sex offenders such as-Udoh should be
subject to lifetime supervision is not an additional or cumulative punishment under the
Double Jeopardy Clause, and this portion of the Petition fails.
3.

Impeachment of Child Victim

Two of the Petition’s grounds arise from the trial court’s determination that
Udoh’s counsel could not present extrinsic evidence of KXW.’s alleged propensity for
lying or telling untrue stories,

Udoh claims in Ground Three that this determination

violated his Confrontation Clause rights and in Ground Four that it deprived him of his
due-process rights and his right to a fair trial.
At trial, Udoh sought to offer the testimony of the victims* mother, a school social
worker, and a police detective regarding KJCW.’s past false statements and accusations.
8

8
Appellate Case: 20-2389

Page: 1001

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQQjgQOI

CASE0:16-cv-04174*PAM-HB Documents Filed07/06/17 Page9of 13

The trial court denied the request, finding that this evidence was extrinsic evidence of a
witness’s propensity for truthfulness and was thus barred under the Minnesota Rules of
Evidence. See Minn. R. Evid. 608(b) (“Specific instances of the conduct of the witness,
for the purpose of attacking or supporting the witness’ character for truthfulness,

• ♦ •

may

not be proved by extrinsic evidence”) The court of appeals recognized that evidentiary
rules must be interpreted in light of the Sixth Amendment’s Confrontation Clause,
“which guarantees a defendant the opportunity to cross-examine the witnesses against
him.” Udoh. 2016 WL 687328, at *4. The court found that the evidence regarding
KXW.’s prior instances of lying and telling “crazy stories” were not so closely related to
KLK-W’s allegations against Udoh to render their exclusion a violation of Udoh’s right to
present a complete defense or a violation of his right to confront witnesses against him.
Id. at *5. As the court noted, Udoh cross-examined KJC.W. and she admitted to prior
instances of lying. Thus, the jury heard evidence that K.K.W. was not always truthful,
and the exclusion of testimony from other witnesses regarding specific instances of
untruthfulness was within the trial court’s discretion and was not a violation of Udoh’s
constitutional rights.
The Confrontation Clause gives a criminal defendant the right to cross-examine
witnesses against him, “and, through cross examination, to expose the motivation of
witnesses in testifying." United States v. Draoeau. 414 F.3d 869, 975 (8th Cir. 2005)
(citing Delaware v. Van Arsdall. 475 U.S. 673, 678-79 (1986)). But this right “is not
without limits, even where the subject matter is bias.”

“The Confrontation Clause is

generally satisfied when the defense is given a full and fair opportunity to probe and
9
9
Appellate Case: 20-2389

Page: 1002

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI01PQO2

n
CASE 0:16-cv-04174-PAM-HB

n
Document 19 Filed 07/06/17 Page 10 of 13

expose [] infirmities through cross-examination. Delaware v. Fensterer. 474 U.S. 15,22
(1985). **[T]he ability to cross-examine the witness through other means is a factor in
considering whether the [trial] court violated confrontation rights.” United State? y,
Sigillito. 759 F.3d 913, 938 (8th Cir. 2014). Indeed, the Supreme Court “has never held
that the Confrontation Clause entitles a criminal defendant to introduce extrinsic evidence
for impeachment purposes.” Nevada v. Jackson. 133 S. CL 1990,1994 (2013) (emphasis
in original).
Udoh cross-examined K.K.W., and was permitted to ask her mother about her
reputation for truthfulness,

Any other evidence in this regard would have been

cumulative and likely would have confused the jury. Id at 1993-94. The state courts
correctly analyzed Udoh’s claims in this regard and determined that the exclusion of
extrinsic evidence regarding KXW.’s propensity for truthfulness was not improper
under the Confrontation Clause.
Similarly, the state appellate court did not err in determining that the exclusion of
this evidence was not a violation of Udoh’s right to present a complete defense. See
Crane v. Kentucky. 476 U.S. 683, 690 (1986) (“[T]he Constitution guarantees criminal
defendants a meaningful opportunity to present a complete defense”) (quotation
omitted). There is no clearly established Supreme Court precedent that the exclusion on
state evidentiary grounds of a sexual abuse victim’s prior false claims of assault violates
the Constitution. Jackson. 133 S. CL at 1991. Thus, under § 2254, the state courts’
resolution of this issue was not unreasonable. This claim is denied

10

10
Appellate Case: 20-2389

Page: 1003

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQID3I0O3

n

r\

CASE 0:16-cv-04174-PAM-HB Document 19 Filed 07/06/17 Page 11 of 13

4.

Prosecutorial Misconduct

Udoh contends that the “cumulative effect” of prosecutorial misconduct resulted in
a violation of his right to a fair trial. He does not cite specific examples of misconduct,
leaving the Court to guess at what comments or conduct were allegedly improper.2 In his
pro se brief to the Minnesota Court of Appeals, Udoh argued that the prosecutor’s use of
the word “victim” to describe K.K.W. and K.C.W. in opening statements and closing
arguments was improper, and that the prosecutor committed misconduct in questioning
witnesses by asking leading questions and making suggestive comments. To the extent
he seeks to raise any other instances of misconduct here, those claims are procedurally
barred.
Under both Minnesota and federal law, prosecutorial misconduct will warrant a
new trial only if it could reasonably have affected the verdict, United States v.Eldridge,
984 F.2d 943, 946 (8th Cir. 1993), or put another way, if it “impaired the defendant’s
right to a fair triaL” Udoh. 2016 WL 687328 at *7 (quoting State v. Powers. 654 N.W.2d
667, 678 (Mina 2003)).

And prosecutorial misconduct rises to the level of a

Constitutional violation, correctable on habeas, only if that misconduct “so infected the
trial with unfairness as to make the resulting conviction a denial of due process.”
Donnelly v. DeChristoforo. 416 U.S. 637,643 (1974).
2 Udoh argues in his reply memorandum that his prosecutorial misconduct claim is
supported by a USA Today investigation from 2010 that found that prosecutors
throughout the United States “repeatedly” committed misconduct, and by a 2010 treatise
opining that courts have not been effective at curbing prosecutorial misconduct (Pet’r’s
Reply Mem. at 15-16.) General claims of nationwide prosecutorial misconduct that
allegedly resulted in “hundreds of wrongful convictions” (id. at 16) are not proof that the
prosecutor in Udoh’s trial committed any misconduct
11

11
Appellate Case: 20-2389

Page: 1004

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQ©gi0O4

n

n

CASE 0:16-cv-04174-PAM*HB Document 19 Filed 07/06/17 Page 12 of 13

The court of appeals determined that Udoh had not established misconduct* “let
alone serious misconduct,” and that, even if any of the conduct amounted to prosecutorial
misconduct, the conduct did not influence the jury’s decision to convict “because the
other evidence of Udoh's guilt was strong. Udoh. 2016 WL 687328, at *7, 9. This
determination is not an unreasonable application of federal law, nor is it an unreasonable
determination of the facts in light of the evidence presented at the trial Udoh is not
entitled to relief on this claim.
5.

Judgment of Acquittal

Finally, Udoh contends that the trial court erred in failing to grant his motion for
judgment of acquittal because there was insufficient evidence to convict turn. He argues
that the denial of his motion deprived him of due process, because the accused has the
right to be found not guilty unless each element of the crime is proved beyond a
reasonable doubt (Pet (Docket No. 1) at 5.)
The Court of Appeals rejected Udoh’s pro se appeal on this claim, finding that the
evidence was sufficient to submit the case to the jury. Udoh, 2106 WL 687328, at *9.
Udoh has not presented any meritorious legal or factual argument that would lead this
Court to conclude otherwise. This claim is denied.
D.

Certificate of Appealability
Udoh may not appeal this Court’s decision without a Certificate of Appealability.

28 U.S.C. § 2253(c)(1)(A); Fed. R. App. P. 22(b)(1). But a Certificate of Appealability is
available only if a petitioner “has made a substantial showing of the denial of a
constitutional right” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard by
12

12
Appellate Case: 20-2389

Page: 1005

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQ1D^I0O5

n

o

CASE 0:16-cv-04174-PAM-HB Documents Filed07/06/17 Page 13of 13

demonstrating that jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate
to deserve encouragement to proceed further.” Miller-El v. Cockrell. 537 U.S. 322,327
(2003). Udoh’s claims are without merit and reasonable jurists could not determine
otherwise. He is therefore not entitled to a certificate of appealability.
CONCLUSION
Accordingly, IT IS HEREBY ORDERED that:
1.

The Petition for a Writ of Habeas Corpus (Docket No. 1) is DENIED; and

2.

No certificate of appealability will issue.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: July 5.2017
s/<Pau£ft. Maamson_______
Paul A. Magnuson
United States District Court Judge

13

13
Appellate Case: 20-2389

Page: 1006

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQDgi0O6

n

n

This opinion will be unpublished and
may not be cited except as provided by
Mm. StaL § 480A.08, svbd. 3 (2014).
STATE OF MINNESOTA
IN COURT OF APPEALS
A14-2181
State of Minnesota,
Respondent,
vs.

EmemUfotUdoh,
Appellant
Filed February 22,2016
Affirmed In part, reversed in part; and remanded
Minge, Judge*
s
Hennepin County District Court
File No. 27-CR-13-8979
Lori Swanson, Attorney General, St Paul, Minnesota; and
Michael O. Freeman, Hennepin County Attorney, Kelly O’Neill Moller, Assistant County
Attorney, Minneapolis, Minnesota (for respondent)
Cathryn Middlebrook, ChiefAppellate Public Defender, DaviE. Axelson, Assistant Public
Defender, St Paul, Minnesota (for appellant)
Considered and decided by Stauber, Presiding Judge; Kirk, Judge; and Minge,
Judge.

* Retired judge of the Minnesota Court of Appeals, serving by appointment pursuant to
Minn. Const art VI, § 10.

1
Appellate Case: 20-2389

Page: 1021

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI<0XH*®21

o
UNPUBLISHED OPINION
MINGE, Judge
On appeal from Us criminal-sexual-conduct convictions, appellant Emem Udoh
argues that the district court abused its discretion by allowing expert testimony on the
ultimate issue and erred by entering a conviction on a count of second-degree criminal
sexual conduct He also raises several issues in a pro se supplemental brief Because die
district court did not abuse its discretion by allowing the expert testimony and the issues in
Udoh's pro se supplemental brief do not identify any reversible error, we affirm with
respect to all of those matters. But because one of the second-degree criminalrsexualconduct convictions is a lesser-included offense ofthe first-degree criminal-sexual-conduct
conviction, we reverse and remand for that conviction to be vacated.
FACTS
Udoh was charged with first-degree and second-degree criminal sexual conduct
toward each of his stepdaughters, KJC.W. and K.C.W., ages 13 and 11 respectively at the
time of trial The KJC.W. counts alleged conduct that occurred between April 25,2012
and February 19,2013; the K.C.W. counts alleged conduct between June 20,2012 and
February 19,2013. On February 19,2013, a school social worker learned that KJLW.
spoke of bring abused. KJK.W: told the social worker and the school liaison law
enforcement officer that Udoh had touched both her and her younger sister, K.C.W.,
inappropriately.
Subsequently, K.K.W. told a Hennepin County child-protection worker that “there
were several incidents where [Udoh] would... touch her

• a •

privates’* and that she did not

2
2
Appellate Case: 20-2389

Page: 1022

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQ03022

* \>

o.

feel safe. K.C.W. told the worker that no abuse had occurred and that she felt safe at home.
Both girls were removed from their home.
Both girls were interviewed at ComerHouse. KJCW. variously reported that Udoh
touched “outside” her “private” with his hand and with “his private,” that Udoh touched
inside her underwear, that his finger went inside her “private area,” and that Udoh laid on
top of her “jerking his private into mine,” hut clarified that she “meant file outside” of her
private. K.C.W. initially told ComerHouse staffthat nothing had happened to her, hut then
admitted that she was “lying before,” that “[i]t did really happen," and that Udoh “opens
this thing” with “[h]is fingers” and “checks to see ifwe’re having sex.”
Both KJCW. and K.C.W. were also examined by Dr. Linda Thompson, a
ComerHouse pediatrician. They told Dr. Thompson that they had been molested by Udoh.
Using an anatomically correct doll, KJCW. indicated that Udoh touched the “innermost
part of the genital area.” K.C.W. again stated that Udoh told her he was checking to see if
the girls were having sex and, by pointing, indicated that he touched her inside the genital
opening.
At trial, both girls testified to their ages when the incidents occurred, what Udoh
did, that T.U., their mother (and Udoh's wife), was at work at the time of contact, and that
they told their mother about the contacts. While varying on some details, their testimony
was similar to what they told the ComerHouse interviewer and Dr. Thompson. KJCW.
stated that when Udoh moved his private parts and something wet came out, he told her
nottotellhermother, and that when she told her mother anyway, her mother didnot believe
her. On cross-examination, KJCW. agreed that she and Udoh argued a lot, that it was
3
3
Appellate Case: 20-2389

Page: 1023

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQQ)EJQ23

n

n

frustrating living with him, that he yelled at her about her grades and talking to boys, and
that he gave her “whoopings.” KJCW. admitted that Udoh took her cell phone away right
before she reported the abuse.
K.C.W. testified that Udoh used his hands to spread open her vagina and looked
inside. K.C.W. thought that this M[p]robably” happened more than 15 times. K.C.W.“told
him to stop a couple times, but he didn’t" K.C.W. testified that die initially lied about not
being abused because Udoh and her mom “told [her] not to tell or [she] would be in foster
care and then we won’t never see each other again." K.C.W. said that she told the truth at
ComerHouse because the lies were confusing and she “got tired of it"
T.U. testified that KJCW. had a reputation at home for lying and that K.C.W. was
/

“a little sneaky," meaning that she too had been dishonest T.U. also deified that the girls
ever told her about any inappropriate touching. According to T.U., KJCW. admitted to
maiflng up the allegations because she was mad that Udoh took her phone away. Udoh
denied having sexual contact with his stepdaughters and testified that KJCW. had a
reputation at home for dishonesty.
The jury found Udoh guilty of both first-degree and second-degree criminal sexual
conduct toward KJCW. and ofsecond-degree criminal sexual conduct toward K.C.W. The
jury found Udoh not guilty of first-degree criminal sexual conduct toward K.C.W. The
district court entered convictions on the three guilty verdicts and sentenced Udoh to 144
months in prison on the first-degree conviction related to KJCW. and to a concurrent
sentence of 70 months on the second-degree conviction related to K.C.W. The district

4

I

4
Appellate Case: 20-2389

Page: 1024

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0(DE|Q24

■S'

Q.

O

court did not impose a sentence on the second-degree conviction of Udoh with respect to
KJCW. This appeal followed.
DECISION
L
The first issue is whether the district court abused its discretion in permitting Dr.
Thompson, a medical doctor, to answer a question ofwhetherUdoh's contact with KJC.W.
was penetration. The district court has broad discretion regarding the admissibility of
evidence, including expert testimony. State v. Reese, 692 N.W.2d 736,740 (Minn. 2005).
We review the district court’s admission of expert testimony for an abuse of discretion.
State v. Goldenstein, 505 N.W.2d 332,341 (Minn. App. 1993), review denied (Minn. Oct
19,1993). When challenging an evidentiary ruling, the appellant must show both that the
district court abused its discretion and that the appellant “was thereby prejudiced.” State
v. Amos, 658 N.W^d 201,203 (Minn 2003).
An expert may testify “in the form of an opinion or otherwise” if(he testimony “will
assist the trier of fact to understand the evidence or to determine a fact in issue.” Minn. R.
Evid. 702. An expert may even provide “opinion testimony on ultimate issues if such
testimony is helpful to the factfinder.” State v. Moore, 699 N.W.2d733,740 (Minn. 2005).
“P]f the subject of the testimony is within the knowledge or experience of a lay jury and
the expert would not be able to deepen the jury’s understanding, then the testimony does
not meet the helpfulness requirement and is not admissible.” Reese, 692 N.W.2d at 740.
On direct, the prosecutor asked Dr. Thompson several questions about female
anatomy and where KJCW. indicated she had been touched. Dr. Thompson described a
5

t

5
Appellate Case: 20-2389

Page: 1025

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQCJ5025

ci

n

n

diagram of female genitalia to the jury. She was then asked, based on the reported
touching, the following questions:
V

[PROSECUTOR]: In order to—for somebody to touch a
female on their hymen, would they have to penetrate [the
entrance to the genital opening]?
[DEFENSE ATTORNEY]: Objection. Calls for a legal
conclusion.
THE COURT: Overruled. You may answer, doctor.
PR. THOMPSON]: In order to touch the hymen, these two
sides have to have been separated; and so something has gone
in there into the whole opening in order to get to the hymen.
[PROSECUTOR]: Okay. So when we talk about something
being inside of the genitals, the female genitals, there’s more
than one version ofwhat inside might be. Is that fair to say?
PR. THOMPSON]: Yes.
Udoh challenges the above testimony, arguing that it “impermissibly interfered with
the jury’s determination of whether Udoh penetrated (KJC.W.’s] genitals.” To convict
Udoh of first-degree criminal sexual conduct toward KJCW^-the jury had to determine
that he “engage[d] in sexual penetration with another person.” See Minn. Stat § 609.342,
subd. 1 (2012) (requiring only “sexual contact” if the victim was under 13 years of age).
Udoh argues that, because the prosecutor used the term “penetration” in her question, Dr.
Thompson’s answer “embraced ’legal conclusions or terms of art’” See Moore, 699
N.W.2d at 740 (“Under the helpfulness test, this court has not allowed ultimate conclusion
testimony which embraces legal conclusions or terms of art” (quotation omitted)). But
our caselaw does not hold testimony to be erroneous simply for including the word
“penetration.” See State v. Kroshus, 447 N.W.2d 203,205 (Minn. App. 1989) (stating that
there was medical testimony that the victim had experienced vaginal penetration), review

6
6
Appellate Case: 20-2389

Page: 1026

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0CJ5026

n

n

denied (Minn. Dec. 20, 1989); State v. Perez, 404 N.W.2d 834, 837 (Minn. App. 1987)
(noting a doctor’s testimony that the victim “exhibited vaginal injury consistent with
penetration”), review denied (Minn. May 20,1987).
Udoh argues that die challenged testimony was similar to die improper expert
testimony in Moore. In Moore, a doctor testified that die victim’s injuries met die
definition of great bodily harm. 699 N.W.2d at 739. The supreme court determined that
because the doctor’s testimony basically told the jury what result it must reach, it was not
helpfiil to die jury. Id. at 740. The testimony was also not helpful because “[wjhetiier [the
victim’s] injuries constituted ‘great bodily harm* was a question within the knowledge and
experience ofthe jury.” Id.
Moore is distinguishable because without further explanation from Dr. Thompson
regarding female anatomy and correct medical toms, a lay jury likely lacked the
knowledge and experience to determine whether Udoh “engage[d] in sexual penetration”
by touching and viewing KJCW.’s hymen. See Minn. Stat § 609342, subd. 1; see also
Mum. Stat § 609341, subd. 12(2) (2012) (defining sexual penetration as being “any
intrusion however slight into the genital or anal openings”). Dr. Thompson was not telling
the jury what result it must reach. See Moore, 699 N.W3d at 740. The testimony helped
die jury determine whether Udoh intruded into K&W.’s genital opening and therefore
nengage[d] in sexual penetration.” See Minn. Stat § 609.341, subd. 12; Minn. Stat
§ 609342, subd. 1. Because we conclude that Dr. Thompson's testimony was helpfiil to
the jury, it follows that the district court did not abuse its discretion by overruling Udoh's
objection and allowing the doctor to answer.
7
7
Appellate Case: 20-2389

Page: 1027

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQQJ5Q27

n

‘w*

We also note' that there is Uttle likelihood that the challenged testimony
"substantially influenced the jury’s decision.” State v. Vang, 774 N.W.2d 566,576 (Minn.
2009) (quotation omitted). The record contained unobjected-to evidence of penetration:
The prosecution had played the recording of Dr. Thompson’s ComerHouse interview of
KJC.W. as a prior consistent statement Thus, the jury heard KJC.W. state that Udoh
touched "inside” her underwear and that he went "inside of there” "[w]ith his finger.” In
addition, Udoh did not object to other portions ofDr. Thompson’s testimony in which she
explained that, using an anatomically correct doll, KJC.W. showed that Udoh touched
inside her genital opening.

n.
The second issue Is whether the second-degree criminal-sexual-conduct charge with
respect to KJCW. was a lesser-included offense of the first-degree charge so that the
district court erred in entering a conviction on both charges. “Upon prosecution for a crime,
the actor may be convicted of either the crime charged or an included offense, but not
both.” Minn. StaL § 609.04, subd. 1 (2012). An included offense is "[a] lesser degree of
the same crime.” Id. Second-degree criminal sexual conduct is a lesser-included offense
of first-degree criminal sexual conduct State v. Kobcw, 466N.W.2d 747,752 (Minn. App.
1991), review denied (Minn. Apr. 18, 1991). “The difference is simply one of sexual
contact versus sexual penetration.” Id.
Both the first-degree sexual-offense count and the second-degree count alleged that
Udoh’s conduct toward KJCW. occurred between April 25,2012 and February 19,2013.
Under this record, there is no evidence that the conduct supporting Udoh’s conviction for
8
8
Appellate Case: 20-2389

Page: 1028

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI00SQ28

o

n

n

second-degree criminal sexual conduct is separate from the conduct supporting his firstdegree conviction. Udoh’s first-degree conviction for penetration therefore includes the
second-degree conduct of sexual contact
i

l

Because the count for the second degree is a lesser-included offense of the one for

i

first degree, we remand for the district court to vacate the judgment on file second-degree
offense against KJC.W.

m.
Udoh raises several additional issues in his pro se supplemental brief, including that
(1) the district court abused its discretion by limiting cross-examination of KJC.W.; (2) file
district court erred by admitting certain evidence; (3) the prosecutor committed
misconduct; and (4) the district court erred by denying his motion for a judgment of
acquittal.
A.

Cross-Examination of K.K.W.

Udoh first challenges the district court’s ruling about the scope of questions
regarding KJLW.'s credibility. The district court has “broad discretion” to control the
scope of cross-examination and may “impose reasonable limits on cross-examination of a
prosecution witness.” State v. Lanz-Terryt 535 N.W.2d 635,639 (Minn. 1995). But the
district court’s broad discretion is limited by file Sixth Amendment, which guarantees a
defendant the opportunity to cross-examine file witnesses against him. Id. at 640.
“Evidentiary rulings rest within the sound discretion of the [district] court and will not be
!

reversed absent a clear abuse of discretion.” Amos, 658 N.W.2d at 203. "The credibility
ofa witness may be attacked or supported by evidence in the form ofopinion or reputation”
9
9

I
Appellate Case: 20-2389

Page: 1029

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI003029

o

n
regarding the witness’s “character for truthfulness or untruthfulness.” Minn. R. Evid.
608(aXl). But, although a party may inquire about specific instances of the witness’s
conduct concerning truthfulness or untruthfulness, extrinsic evidence may not be used to
prove those specific instances. Minn. R. Evid. 608(b).
Before trial, the prosecutor moved to prohibit Udoh’s attorney from impeaching
KJC.W. with prior instances of lying through cross-examination of her or any other
witnesses. The district court determined that “evidence of the alleged victim’s prior
conduct is not admissible pursuant to Minnesota Rules ofEvidence 404 or 405” because it
is “impermissible propensity evidence** and “the alleged victim's veracity is not an
essential element of [the] chargefs].” The district court stated that Udoh could “inquire
into specific instances of lying on cross-examination ofthe alleged victim” but must accept
the answer. He could not introduce extrinsic evidence of past conduct
Udoh argues that the district court’s ruling was improper under Goldenstein. hi
Goldenstein, we reversed the appellants’ convictions because “the [district] court’s
exclusion of evidence of the prior false allegations violated [the appellants’] constitutional
right to present a defense.” 505N.W.2dat340. But here, although KJC.W. admitted lying,
there is no evidence that she made a prior false allegation ofsexual abuse. Because Udoh
only sought to introduce evidence that KJC.W. lied and told crazy stories, Goldenstein is
not on point Udoh also cites State v. Benedict, which discusses the admission of evidence
showing tiie victim’s source ofsexual knowledge. See 397 N.W.2d 337,341 (Minn. 1986)
(“{A] [district] court has discretion to admit evidence tending to establish a source of
knowledge of or familiarity with sexual matters in circumstances where the jury otherwise
10

10
Appellate Case: 20-2389

Page: 1030

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQ03Q3O

would likely infer that the defendant was the source of the knowledge.”). Because Udoh
did not seek to introduce evidence of KJCW.’s sexual knowledge, Benedict fa also not on
point
Under rule 608, the district court stayed within its range of discretion. It allowed
Udoh to challenge KJCW.’s credibility by asking about specific instances of
untpithflilnffM. Because she admitted that she had not been truthful in those situations,
they were not in dispute. The district court could prohibit Udoh from introducing extrinsic
evidence regarding such undisputed, specific instances. Accordingly, we conclude that the
district court did not abuse its discretion by limiting Udoh’s cross-examination ofKJC.W.1
B.

Interview Evidence

Udoh next challenges the admission of evidence regarding the CometHouse
interviews and Dr. Thompson’s testimony about her interviews of KJC.W. and K.C.W. on
various grounds, including that the interviews were done without parental consent and that
the ComerHouse and Dr. Thompson interviews were otherwise inadmissible. Udoh
mentions a variety of additional objections which are not accompanied with analysis or
legal argument. We conclude that these additional objections are not meritorious and do
not further consider them.

1 Udoh also appears to argue that the school social worker was biased against him and that
the district court erroneously precluded him from cross-examining her regarding her biases.
But die district court made no ruling about cross-examination and only prevented Udoh
from introducing extrinsic evidence to challenge KJCW.’s truthfulness.
11
11
Appellate Case: 20-2389

Page: 1031

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQG)qQ31

o

1.

Parental Consent; General Constitutional Claims

Once a local welfare agency receives a report of sexual abuse, it must conduct an
investigation. Minn. Stat § 626.556, subd. 10(bXl) (2012). The agency has the “authority
to interview, without parental consent, the alleged victim and any other minors who
currently reside with... the alleged offender.” Id, subd. 10(d) (2012) (emphasis added).
These authorized interviews may occur at school or any other facility. Id. The agency
must only notify a parent “no later than the conclusion ofthe investigation or assessment”
Id. Under this statute, county officials could interview K.K.W. and K.C.W. without a
warrant, probable cause, or exigent circumstances. See Id. In addition, the interviews did
not require parental consent See Id. Furthermore, Udoh provides no evidence of any
improper investigative procedures.
Given Minnesota's statute and the lack of applicable legal authority requiring a
warrant or exigent circumstances to interview a suspected child victim of abuse, we
conclude that the interviews did not violate any constitutional rights that may be asserted
by Udoh.
2.

ComerHouse Interviews

We review Udoh's assertions that the district court improperly admitted the
ComerHouse interviews into evidence for an abuse of discretion. Amos, 658 N.W.2d at
203. The district court overruled Udoh's hearsay objection to the ComerHouse interviews
and admitted the videos as prior consistent statements. A witness’s prior statement that is
consistent with the witness's testimony is not hearsay and is admissible if it is helpful to
the jury in evaluating the witness's credibility. Minn. R. Evid. 801(d)(1).
12
12
Appellate Case: 20-2389

Page: 1032

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI00qi032

<W%*

(

n

i

The district court determined that although KJCW.’s and K.C.W.*s testimonies
were “not identical” to their ComerHouse statements, they were “reasonably consistent”
In reviewing the record, we conclude that the district court did not abuse its discretion in
determining that the girls’ testimony was “reasonably consistent” with their ComerHouse
statements.
hi addition, the district court determined that the credibility of both KJC.W. and
K.C.W. was challenged during their cross-examinations so the ComerHouse statements
“would be helpfiil to the jury in evaluating their credibility.” Udoh challenged KJC.W.
about her truthfulness and relationship with Udoh, and pointed to K.C.W.’s initial
statements denying abuse. Given the girls’ respective testimony, their ComerHouse
statements were helpful to the jury In evaluating their credibility. We conclude that the
district court did not abuse its discretion in admitting the ComerHouse interviews as prior
consistent statements.
3.

Dr. Thompson's Interviews

Udoh appears to argue that Dr. Thompson’s testimony was erroneously admitted
because she did not record her interviews with KJCW. and K.C.W. Because Udoh did not
challenge this testimony at trial, we apply a plain-error standard of review. See State v.
Griller, 583 N.W.2d 736,740 (Minn. 1998). Before reviewing “an unobjected-to trial
error, there must be (1) enor, (2) that is plain, and (3) affects substantial rights.” State v.
Ramey, 721 N.W.2d 294,302 (Minn. 2006).
Udoh does not cite to and we are not aware of any legal requirement that Dr.
Thompson record her interviews. Udoh does not allege that Dr. Thompson’s written report,
13
13

i

Appellate Case: 20-2389

Page: 1033

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQQqi033

n

n

which she referred to at trial, was deficient in anyrespect Udoh also appears to argue that
Dr. Thompson’s interview of KJC.W. was insufficient because K.K.W. did not watch toe
i

screen during her physical examination. But Dr. Thompson testified that only about 50%
of children watch toe screen during their examinations. And even without watching toe
screen, KXW. was able to identify where Udoh touched her. Udoh cannot establish plain
error regarding Dr. Thompson’s testimony. See id. (explaining that a plain error must be
clear or obvious).
C

Prosecutorial Misconduct

Udoh alleges that toe prosecutor committed misconduct in (1) opening argument;
(2) questioning witnesses; and (3) closing argument Udoh also argues that the "cumulative
effects” of prosecutorial misconduct violated his due-process and equal-protection rights.
Most of his claims on appeal were not objected to at trial. The plain-error standard of
review applies when no objection is made at trial. Id. at 299. If toe appellant shows that
toe misconduct violated caselaw, a rule, or standard of conduct, toe burden shifts to toe
state to show that toe misconduct did not prejudice toe defendant’s substantial rights. Id.
at 299-300. Furthermore, we "will reverse [a claim of generalized prosecutorial
misconduct] only if toe misconduct, when considered in light of toe whole trial, impaired
toe defendant’s right to a fair trial." State v. Powers, 654 N.W.2d 667,678 (Minn. 2003).
If the misconduct was serious, toe misconduct [must be] harmless beyond a reasonable
doubt [meaning that] the verdict rendered was surely unattributable to toe error. For less
serious misconduct, toe standard is whether toe misconduct likely played a substantial part
in influencing the jury to convict" Id. (quotations and citations omitted).
14
14
Appellate Case: 20-2389

Page: 1034

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI004Q34

n
/.

Opening Argument

Udoh first challenges the beginning of the prosecutor’s opening argument on the
ground that it erroneously stated that Udoh sexually abused T.U. But In* making his
challenge, Udoh focuses on a phrase in a single sentence of the prosecutor's argument; we
must consider the prosecutor's statement as a whole. SeeStatev. Wahh% 495 N.W.2d 602,
607 (Minn. 1993). It is clear from the full context that the prosecutor did not argue or make
a claim that Udoh sexually abused T.U. We conclude that the assertion that the
i

prosecutor's allusion to T.U. discredited her is not meritorious.

l

Udoh also asserts that the prosecutor erred by stating that the girls were “victims of
sexual abuse." Before trial, Udoh's attorney moved the district court to direct "the parties
to refer to KJCW. and K.C.W. as complaining witnesses rafter than as {victims]" because
“[t]he ultimate issue in this case is whether or not they were victims... of sexual abuse.”
The district court allowed the prosecutor to refer to them as victims or alleged victims in
opening and closing arguments as long as the prosecutor did not "overuse that word." The
prosecutor only referred to KJK.W. and K.C.W. as "victims" once in heropetting argument
She also twice referenced a generic victim of sexual abuse. We conclude the prosecutor's
statement was not misconduct, let alone serious misconduct.
2.

Questioning Witnesses

Udoh asserts that, when questioning witnesses, the prosecutor asked "misleading
questions” and made "suggestive comments on facts." Udoh's attorney made several
objections that the prosecutor was improperly leading the testimony of KJC.W. and
K.C.W., and the district court overruled the objections. “Leading questions should not be
15
15

:

Appellate Case: 20-2389

Page: 1035

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0(D$Q35

1j

o

n

used on the direct examination of a witness except as may be necessary to develop die
witnesses] testimony.” Minn. R. Evid. 611(c). But in context, leading questions were
necessary to develop KJCW.’s and K.C.W.*s testimony given the girls’ ages and
explanations of events. See Minn. R. Evid. 611(c) cmt (stating that leading questions can
be “necessary to develop testimony because of temporary lapse of memory, mental defect,
immaturity of a witness, etc.”).
Udoh also challenges the prosecutor’s questions to T.U. about her relationship with
the girls’ father.2 Udoh’s attorney objected to this questioning. But the district court
overruled die objection. It reasoned that while testifying on Udoh’s behalf T.U. had stated
that the girls wanted to live with their dad and that this prior testimony opened die door to
further questioning about the girls’ father and the girls' reasons for wishing to live with
him. See State v. Bailey, 732 N.W.2d 612,622 (Minn. 2007) (explaining that when one
>

i

party opens the door “by introducing certain material,” the other party has “a right to
respond with material that would otherwise have been inadmissible” (quotation omitted)).
Regardless, there is no evidence that this brief portion ofT.U.’s testimony about the girls’
father prejudiced Udoh. Udoh’s attorney rebutted the prosecutor’s questions in closing by
arguing that the girls “fantasized” that life would be better with their dad. We conclude

2 Udoh refers to this as “relationship evidence,” but relationship evidence is evidence of
similar conduct by the defendant against the victim of domestic abuse or other family
members. See Minn. Stat § 634.20 (2012). Evidence ofthe relationship between T.U. and
the girls’ father is not relationship evidence and does not require any special jury
instructions. See State v. Word, 753 N.W.2d 776,783,785 (Minn. App. 2008) (defining
relationship evidence and stating that such evidence requires a cautionary instruction).
16
16
Appellate Case: 20-2389

Page: 1036

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0(DgQ36

'•? 'i W

r

p

that any testimony about the girls* father’s abusive behavior had no effect on the jury’s
verdict against Udoh.
Udoh makes several other arguments about die questioning of witnesses, including
that the prosecutor, “elicited false testimonies from govemmentQ witness[es]f” withheld
evidence, improperly asked K.K.W. and K.C.W. whether they were telling the truth, and
“made improper objections... to prevent the admission of relevant evidence.” We find
no support for these allegations. Small inconsistencies among different witnesses do not
create an inference that the prosecutor elicited false testimony or withheld evidence. Udoh
identifies no legal basis for his claims that the prosecutor’s questions or objections were
improper. Many of Udoh’s cited objections were sustained by the district court, but we
conclude that none of the adverse rulings was an abuse of discretion.
3.

Closing Arguments

Udoh asserts that the prosecutor improperly endorsed the credibility of the state’s
witnesses. The prosecutor stated: “[KJCW.] has no reason to lie to you” and “[K.C.W.]
just like her sister has no reason to tie to you.” She also stated that, ifthe girls had told the
story “the same exact way every single time,” she “would have been concerned these girls
were lying.” Finally, the prosecutor stated that she could not “think of a single reason”
why the girls would lie about telling their mom about the abuse. “A prosecutor may argue
as to the credibility of witnesses but may not throw [her] own opinion onto the scales of
credibility.” State v. McNeil, 658 N.Wutd 228,235 (Minn. App. 2003). As in McNeil, we
conclude that here any error in a limited assertion of the girls* credibility in closing

17

•

17
Appellate Case: 20-2389

Page: 1037

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0ID3Q37

^

>«*.

m

o
argument is harmless given the girls’ “descriptive and detailed testimony” regarding the
abuse. See Id. at236.
Udoh also challenges the prosecutor’s statement that part of Udoh’s argument is a
“red herring.” A prosecutor may use the phrase “red herring” to “anticipate] those aspects
of the evidence that the state need not prove at all hut [to which] the defense [is expected
to] attach unwarranted significance.” See State v. Moseng, 379 N.W.2d 154,156 (Minn.
App. 1985).3 The prosecutor was also free to discuss the girls’ testimony about
"whoopings,” which was introduced by Udoh, to anticipate Udoh’s argument that the girls
lied because they were mad at him for punishing them. See Id. As with opening statements,
Udoh claims that the prosecutor's use of the word “victim” was prejudicial error. Twice
in closing the prosecutor used the word “victim” to refer to K.K.W. and K.C.W. and three
times to refer to the general investigative process. We conclude that use was within tire
limits allowed by the district court and does not constitute misconduct or prejudicial error.
Udoh cites several other statements during the prosecutor’s closing arguments as
evidence of prosecutorial misconduct But reading the arguments as a whole, see Walsh,
495 N.W.2d at 607, we can find no evidence of prosecutorial misconduct Even if there
was misconduct it did not “playQ a substantial part in influencing the jury to convict”
because the other evidence of Udoh’s guilt was strong. See Powers, 654 N.W.2d at 678
(quotation omitted).
3 Udoh’s cited case involves a prosecutor attacking the defense attorney in closing
argument to suggest that the attorney conspired with the defendant to fabricate testimony.
See United States v. Holmes, 413 F3d 770,775 (8th Cir. 2005). The prosecutor here made
* no such personal attacks against Udoh’s attorney.
18

18
Appellate Case: 20-2389

Page: 1038

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRIQP1I038

-V \f '■&

o

t

D.

Denial of Motion for Judgment of Acquittal

Finally, Udoh argues that die district court erred by denying his motion for a
judgment of acquittal because the evidence was insufficient to sustain his convictions. “At
the close of evidence for either party, the defendant may move for... a judgment of
acquittal on one or more of the charges if the evidence is insufficient to sustain a
conviction.** Minn. R. Crim. P. 26.03, subd. 18(l)(a). To grant this motion, the district
court must determine “whether the evidence is sufficient to present a fact question for the
jury’s determination, after viewing the evidence and all resulting inferences in favor ofthe
state." State v. Slaughter, 691 N.WJ2d 70,74-75 (Minn. 2005).
Udoh argues that the evidence was insufficient to show that he touched KJC.W. and
K.C.W. with sexual intent Viewing the record, we conclude that the state’s evidence was
“sufficient to present a fact question for the jury’s determination.” See Id. at 75.
Udoh further argues that the evidence was insufficient to show that he met the
requirement that to convict on the various degrees of sexual misconduct he was 48 or 36
months older than KXW. and K.C.W. Udoh’s trial counsel specifically raised this issue
in requesting reconsideration ofthe denial ofhis motion for a judgment of acquittal, hi its
case, the state established both girls’ birthdays, ages at trial, and ages when the alleged
abuse occurred. On cross-examination of Udoh, the state established Udoh’s birthday and
his age. Udoh presents no caselaw requiring the state to establish Udoh’s age in Its case in
chief! And even before Udoh testified, the state had a “common sense argument" that Udoh
met the age-difference requirement because the girls were 13 and 11 and Udoh was an
adult, a college graduate, and married to the girls’ mother. The evidence was sufficient for
19
19
Appellate Case: 20-2389

Page: 1039

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI003Q39

v

n

O

the jury to conclude that Udoh was more than 48 months older than the girls at the time of
the alleged offenses.
Finally, Udoh argues that the evidence was insufficient to support his convictions
because the state did not establish specific dates for his offenses. The complaint listed a
range of dates for Udoh’s offenses, rather than specific dates. “[SJpecific dates need not
be charged or proven in a sexual abuse case.” State v. Poole, 489 N.W.2d 537,544 (Minn.
App. 1992), tiff'd, 499 N.W.2d 31 (Minn. 1993). The girls’ testimony supported the range
of dates listed in the complaint
Because fire evidence was sufficient to submit the case to the jury, we conclude the
district court did not err by denying Udoh’s motion for a judgment of acquittal. See
Slaughter, 691 N.W.2d at 74-75.
Affirmed In part, reversed In part, and remanded.

i

20

20
l
Appellate Case: 20-2389

Page: 1040

Date Filed: 08/28/2020 Entry ID: 4950702 RESTRI0PIQ4O

